No. ______
In the

Supreme Court of the United States
__________________
DR. MARCUS TURNER, SR., RUSSELL MOORE, JR., AND
BEULAH COMMUNITY IMPROVEMENT CORP.,
Petitioners,
v.
ALVA C. HINES, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
District of Columbia Court of Appeals

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

JOSEPH G. COSBY
BUTZEL LONG, P.C.
1909 K Street, N.W.
Suite 500
Washington, DC 20006
(202) 454-2800
cosby@butzel.com

JOSEPH G. RICHOTTE
Counsel of Record
BUTZEL LONG, P.C.
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, MI 48304
(248) 258-1616
richotte@butzel.com

Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
This case presents two important questions
concerning the First Amendment’s protection of
churches against the power of the state. A disaffected
faction of a Baptist church, without any authorization
from the church, sued the church leadership seeking
relief solely on behalf of the church. This faction sought
intrusive injunctive relief that would paralyze the
church and deliver it into the hands of the court, or the
plaintiffs.
This Court has long held that churches have a First
Amendment right “to decide for themselves, free from
state interference, matters of church government as well
as those of faith and doctrine.” Kedroff v. St. Nicholas
Cathedral, 344 U.S. 94, 116 (1952). But the D.C. Court
of Appeals, along with two other lower courts, applies a
one-part “neutral principles of law” test to determine
whether the case raises any issues of “religious
doctrine.” This inquiry focuses solely on the plaintiffs’
claims and not on the relief sought. Finding no
“doctrinal” issues, the Court of Appeals ruled for the
plaintiffs.
At least five lower courts, more faithful to Kedroff,
add a second inquiry – whether the case intrudes
coercively into the internal affairs and governance of the
church.
And on the second question presented, there is a split
between the D.C. Court of Appeals and the D.C. Circuit.
The questions presented are:
I. Does the First Amendment require courts, in
applying “neutral principles of law” in a church dispute,

ii
to consider (1) whether the judicial inquiry “intrudes
coercively into church governance” even when (2) there
is no “religious doctrinal” matter at issue?
II. Does the First Amendment require courts, in
applying “neutral principles of law” in a church dispute,
to analyze both (1) the claims and (2) the scope and
nature of the relief sought?

iii
PARTIES TO THE PROCEEDINGS
Petitioners are Dr. Marcus Turner, Sr., Russell
Moore, Jr., and Beulah Community Improvement
Corporation, all of whom were defendant-appellants in
the case below.
Respondents Alva C. Hines, Tracy D. Jones, Marcia
V. Jones, Norma Hunter, Betty Givens, Daisy Johnson,
Willie M. Crosby, William Minor, James R. Brown,
Delores C. Brown, Samuel J. Forrest, Joyce Forrest,
Lydell Mann, Sr., Jean M. Gaskins, Beatrice H. Scott,
Hazel E. Green, Edith D. Minor, and Walter M.
Williams are eighteen individuals who were plaintiffsappellees in the proceeding below.
CORPORATE DISCLOSURE STATEMENT
Petitioner Beulah Community Improvement
Corporation is a non-profit corporation, exempt from
taxation under 26 U.S.C. § 501(c)(3). It does not have
parent companies and is not publicly held.

iv
STATEMENT OF RELATED PROCEEDINGS
This case was initiated in the District of Columbia
Superior Court and appealed to the District of
Columbia Court of Appeals prior to this petition. In
those two courts, the cases are referred to as follows:
• Alva C. Hines, et al. v. Dr. Marcus Turner Sr., et
al., 2015 CA 001406 B, D.C. Superior Court
(final order triggering the right to appeal,
entered on April 15, 2016).
• Dr. Marcus Turner, Sr., et al. v. Alva C. Hines, et
al, 16-CV-0444, D.C. Court of Appeals (final
judgment issued March 12, 2019; mandate
issued March 20, 2019).
There are no additional proceedings in any court
that are directly related to this case.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . iii
CORPORATE DISCLOSURE STATEMENT . . . . . iii
STATEMENT OF RELATED PROCEEDINGS . . . iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . viii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
DECISIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . 6
STATEMENT OF JURISDICTION . . . . . . . . . . . . . 6
PERTINENT CONSTITUTIONAL PROVISIONS,
STATUTES, AND REGULATIONS . . . . . . . . . . 7
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 7
A. Factual Background. . . . . . . . . . . . . . . . . 10
B. Procedural Background . . . . . . . . . . . . . . 13
C. Jurisdiction. . . . . . . . . . . . . . . . . . . . . . . . 14
REASONS FOR GRANTING THE WRIT. . . . . . . . 16
I.

There is an Acute, Irreconcilable Split
Concerning Whether Judicial Inquiry that
Intrudes Coercively into the Church’s SelfGovernance Violates the First Amendment. 16
A. The D.C. and Fifth Circuits and the
Texas, Mississippi, and North Carolina
Supreme Courts Have Adopted the TwoPart Test. . . . . . . . . . . . . . . . . . . . . . . . . . 17

vi
B. The D.C. Court of Appeals, the Second
Circuit, and the New Jersey Supreme
Courts Adhere to the One-Part Test. . . . 24
II.

There is a Significant Split Concerning
Whether the “Neutral Principles of Law” Test
Analyzes Only the Claims, Or the Nature of
the Relief Requested As Well. . . . . . . . . . . . . 28

III.

This Case Addresses an Extremely
Important First Amendment Issue. . . . . . . . 30
A. This Case Presents an Important First
Amendment Church Autonomy Issue that
Affects Millions of Americans. . . . . . . . . 31
B. Guidance from This Court Will Assist
Lower Courts Both in Effectively
Managing Church Disputes and in
Shaping Appropriate Relief. . . . . . . . . . . 32
C. This Case Addresses Important Questions
Left Open by this Court in HosannaTabor About First Amendment
Protections for Churches . . . . . . . . . . . . . 33

IV.

This Case is an Excellent Vehicle for
Resolving the Questions Presented . . . . . . . 36

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
APPENDIX
Appendix A Order in the District of Columbia
Court of Appeals
(March 12, 2019) . . . . . . . . . . . . . . App. 1

vii
Appendix B Memorandum Opinion and Judgment
in the District of Columbia Court of
Appeals
(January 16, 2019) . . . . . . . . . . . . App. 3
Appendix C Order in the Superior Court of the
District of Columbia
(April 15, 2016) . . . . . . . . . . . . . . App. 19
Appendix D Order in the Superior Court of the
District of Columbia
(February 16, 2016) . . . . . . . . . . App. 28
Appendix E Order in the Superior Court of the
District of Columbia
(November 19, 2015) . . . . . . . . . . App. 41
Appendix F Omnibus Order in the Superior Court
of the District of Columbia
(September 4, 2015) . . . . . . . . . . App. 47
Appendix G First Amended Complaint in the
Superior Court of the District of
Columbia
(June 17, 2015) . . . . . . . . . . . . . . App. 68
Appendix H 1997 Church Constitution of The
Beulah Baptist Church of Deanwood
Heights, D.C.. . . . . . . . . . . . . . . App. 110

viii
TABLE OF AUTHORITIES
CASES
Abney v. v. United States,
431 U.S. 651 (1977). . . . . . . . . . . . . . . . . . . . 15, 16
Archdiocese of San Juan v. Feliciano,
O.T. 2018, No. 921 . . . . . . . . . . . . . . . . . . . . . . . 37
Church of God Pentecostal, Inc. v. Freewill
Pentecostal Church of God, Inc.,
716 So.2d 200 (Miss. 1998) . . . . . . . . . . . . . . . . . 20
Combs v. Central Texas Annual Conference of
United Methodist Church,
173 F.3d 343 (CA5 1999) . . . . . . . . . . 4, 17, 18, 22
Corporation of Presiding Bishop of Church of Jesus
Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1987). . . . . . . . . . . . . . . . . . . . 34, 35
Costello Publ’g Co. v. Rotelle,
670 F.2d 1035 (CADC 1981) . . . . . . . . . . . 5, 10, 29
Cox Broadcasting Corp. v. Cohn,
420 U.S. 469 (1975). . . . . . . . . . . . . . . . . . 7, 14, 16
E.E.O.C. v. Catholic University of America,
83 F.3d 455 (CADC 1996) . . . . . . . . . . . . . 4, 22, 23
Elrod v. Burns,
427 U.S. 347 (1976). . . . . . . . . . . . . . . . . . . . . . . 15
F.G. v. MacDonell,
150 N.J. 550, 696 A.2d 697 (1997) . . . . . . . . . 4, 27

ix
Family Federation for World Peace v. Moon,
129 A.3d 234, 249 (D.C. 2015) . . . . . . . 8, 9, 24, 25
Feliciano v. Roman Catholic and Apostolic Church,
200 DPR 458 (P.R. 2018) . . . . . . . . 5, 6, 28, 29, 43
Greater Fairview Missionary Baptist Church,
160 So.3d 223 (Miss. 2015) . . . . . . . . . 6, 10, 30, 32
Harris v. Matthews,
361 N.C. 265, 643 S.E.2d 566 (2007) . . . 14, 21, 22
Harris v. Washington,
404 U.S. 55 (1971). . . . . . . . . . . . . . . . . . . . . . . . 16
Heard v. Johnson,
810 A.2d (D.C. 2002) . . . . . . . . . . . . . . . . . . . . . . 15
Hosanna-Tabor Evangelical Lutheran Church &
School v. E.E.O.C.,
565 U.S. 171 (2012). . . . . . . . . . . . . . . . . . . passim
Jones v. Wolf,
443 U.S. 595 (1979). . . . . . . . . . . . . 3, 4, 24, 26, 30
Kedroff v. Saint Nicholas Cathedral of Russian
Orthodox Church in North Am.,
344 U.S. 94 (1952). . . . . . . . . . . . . . . . . . . . passim
Martinelli v. Bridgeport Roman Catholic Diocesan
Corp.,
196 F.3d 409 (CA2 1999) . . . . . . . . . . . . . 4, 25, 26
McCarthy v. Fuller,
714 F.3d 971 (CA7 2013) . . . . . . . . . . . . . . . 32, 33
Meshel v. Ohev Shalmon Talmud Torah,
869 A.2d 343 (D.C. 2005) . . . . . . . . . . . . . . 3, 4, 24

x
Mitchell v. Forsyth,
472 U.S. 511 (1985). . . . . . . . . . . . . . . . . . . . . . . 15
NLRB v. Catholic Bishop of Chicago,
440 U.S. 490 (1979). . . . . . . . . . . . . 4, 9, 14, 23, 31
National Socialist Party of Am. v. Village of Skokie,
432 U.S. 43 (1977). . . . . . . . . . . . . . . . . . . 7, 15, 16
Redwing v. Catholic Bishop for Diocese of Memphis,
363 S.W.3d 436 (Tenn. 2012) . . . . . . . . . . . . . . . 27
St. Joseph Catholic Orphan Society v. Edwards,
449 S.W.3d 727 (Ky. 2014) . . . . . . . . . . . . . . . . 15
Schmidt v. Catholic Diocese of Biloxi,
18 So.3d 814 (Miss. 2009) . . . . . . . . . . . . . . . 20, 21
Smith v. White,
2014-Ohio-130, 7 N.E.3d 552, 563-64, 569 (Ohio
App. 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Swanson v. Roman Catholic Bishop of Portland,
1997 ME 63, 692 A.2d 441 (1997) . . . . . . . . . . . 14
Westbrook v. Penley,
231 S.W.3d 389 (Tex. 2007) . . . . . . . . . . . . . 18, 19
CONSTITUTION AND STATUTES
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . 15, 16
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . 7, 14
28 U.S.C. § 1257(b). . . . . . . . . . . . . . . . . . . . . . . . . . 14
U.S. Const. Amdt. I . . . . . . . . . . . . . . . . . . . . . . . . . . 7

xi
OTHER AUTHORITIES
1 Timothy 3:1 (Amplified Bible, Classic Edition, The
Lockman Foundation 1987) . . . . . . . . . . . . . . . . 11
1 Timothy 3:1 (New International Reader’s Version,
Biblica 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
1997 Church Constitution,
Article II . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 11
Article IV, Section 1 . . . . . . . . . . . . . . . . . . . 11, 12
Article IV, Sections 1-2 . . . . . . . . . . . . . . . . . . . . 11
Article IV, Section 4 . . . . . . . . . . . . . . . . . . . . . . 11
Article V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Article V, Section 1.a . . . . . . . . . . . . . . . . . . . . . 12
App. to Petition for Writ of Certiorari in
Archdiocese of San Juan v. Feliciano, O.T. 2018,
No. 921 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 29
Baptist
World
Alliance,
Statistics
(http://bwanet.org/statistics) . . . . . . . . . . . . . . . 31
http://www.nationalbaptist.com/resources/churchfaqs/pastor-clergy-faqs.html . . . . . . . . . . . . . . . . 11
The Merriam-Webster Dictionary 72 (2016) . . . . . . 11
Southern Baptist Convention, Fast Facts About the
SBC (http://www.sbc.net/BecomingSouthern
Baptist/ FastFacts.asp). . . . . . . . . . . . . . . . . . . . 31

1
PETITION FOR WRIT OF CERTIORARI
This case presents two questions about how to apply
the “neutral principles of law” standard for
determining whether a secular court may hear a
dispute involving a religious organization. First, must
courts that apply the “neutral principles of law”
analysis use a two-part or one-part test? Is it enough,
in other words, for a court to determine that it does not
need to consider any religious “doctrinal” issues? Or
must it also scrutinize whether the case would require
the court to intrude coercively into church governance?
Second, must a court applying the “neutral principles
of law” standard examine not only the liability
presented by the lawsuit, but the request for relief as
well?
The Baptist church in this case is governed by a
board of three elders. The pastor, who is on the board
of elders, is the chief elder. The case began when a
disaffected faction of the church sued the pastor,
another elder, and the church’s community
development corporation (“CDC”).1 Although none of
the eighteen individual plaintiffs/respondents are
deacons, officers, or otherwise part of the church
leadership, they seek monetary and injunctive relief
against the defendants on behalf of the church only, not
on their own behalf. Among other things, the
respondents petition for a permanent injunction
against the pastor and another elder to prohibit them

1

The CDC is a nonprofit organization affiliated with the church.
The CDC works to advance the church’s mission by tending to the
poor and disadvantaged. App. 77-78.

2
from exercising any
finances or property.
effectively paralyze
governance into the
respondents.

authority over the church’s
This relief, if granted, would
the church and deliver its
hands of the court, or the

This lawsuit is the third suit that members of the
same faction have brought alleging essentially the
same claims against the pastor, the elder, and other
leaders of the church. Two of the respondents were
also plaintiffs in the other lawsuits. Although both of
the previous two suits were dismissed with prejudice,
they pursued this third complaint.
To protect the independence of churches from
secular control or manipulation, the First Amendment
prohibits courts from interposing themselves in
matters of church government. Kedroff v. Saint
Nicholas Cathedral of Russian Orthodox Church in
North Am., 344 U.S. 94, 116 (1952). The First
Amendment guarantees churches “power to decide for
themselves, free from state interference, matters of
church government as well as those of faith and
doctrine.”
Id. (emphasis added).
Justice Alito
explained the necessity for this rule in his concurrence
in Hosanna-Tabor Evangelical Lutheran Church &
School v. E.E.O.C.:
Throughout our Nation’s history, religious
bodies have been the preeminent example of
private associations that have acted as critical
buffers between the individual and the power of
the State.”…[T]he autonomy of religious groups,
both here in the United States and abroad, has
often served as a shield against oppressive civil

3
laws. To safeguard this crucial autonomy, we
have long recognized that the Religion Clauses
protect a private sphere within which religious
bodies are free to govern themselves in
accordance with their own beliefs.
565 U.S. 171, 199 (2012)(Alito, J., concurring; citation
and internal brackets and quotation marks omitted).
1. The District of Columbia Court of Appeals
acknowledged Kedroff and Hosanna-Tabor only in
passing (App. 12), and based its analysis on a different
approach. According to the Court of Appeals, a secular
court could hear the plaintiffs/respondents’ claims
without violating the First Amendment because
“liability may be adjudicated under neutral principles
of tort law…” App. 4.
Instead of drawing on the teaching of Kedroff and
Hosanna-Tabor, the Court of Appeals relied solely on
this Court’s decision in Jones v. Wolf, 443 U.S. 595,
602, 603 (1979). Based on Jones, the Court of Appeals
previously held that “‘civil courts may resolve disputes
involving religious organizations as long as the courts
employ neutral principles of law and their decisions are
not premised upon their consideration of doctrinal
matters, whether the ritual and liturgy of worship or
the tenets of faith.’” Meshel v. Ohev Shalmon Talmud
Torah, 869 A.2d 343, 354 (D.C. 2005) (quoting Jones,
443 U.S. at 602). See also App. 12-13 (quoting Meshel).
The Court of Appeals has concluded that under Jones,
the “neutral principle of law” approach is sufficient by
itself to “avoid[] prohibited entanglement in questions
of religious doctrine, polity, and practice by relying
exclusively upon objective, well-established concepts of

4
law that are familiar to lawyers and judges.” Meshel,
at 354 (quoting Jones, emphasis added). See also App.
13. The D.C. Court of Appeals is joined in this
approach by the Second Circuit and the Supreme Court
of New Jersey. See Martinelli v. Bridgeport Roman
Catholic Diocesan Corp., 196 F.3d 409 (CA2 1999); F.G.
v. MacDonell, 150 N.J. 550, 696 A.2d 697 (1997).
But other courts have concluded that the “neutral
principles of law” approach, by itself, is insufficient to
ensure that courts do not infringe the First
Amendment. The Fifth Circuit, drawing on Kedroff,
has held that a court must also consider a second
factor: whether the case would require it “necessarily
[to] intrude into church governance in a manner that
would be inherently coercive.” Combs v. Central Texas
Annual Conference of United Methodist Church, 173
F.3d 343, 350 (CA5 1999). A court must pursue this
examination “even if the alleged [issues] were purely
nondoctrinal.”
The D.C. Circuit, in an opinion on which the Fifth
Circuit relied heavily, held that “[a]n excessive
entanglement [in violation of the First Amendment]
may occur where there is a sufficiently intrusive
investigation by a government entity” into internal
church affairs. E.E.O.C. v. Catholic University of
America, 83 F.3d 455, 466 (CADC 1996). Quoting this
Court’s decision in NLRB v. Catholic Bishop of
Chicago, 440 U.S. 490, 502 (1979), the D.C. Circuit
added that “’[i]t is not only the conclusions that may be
reached by [an agency] which may impinge on rights
guaranteed by the Religion Clauses, but also the very

5
process of inquiry leading to findings and conclusions.’”
Catholic University, 83 F.3d at 466 (emphasis added).
Although this two-part test approach may have
originated in employment discrimination claims, it is
by now deeply rooted in other areas of tort law. At
least three other courts – the Supreme Courts of Texas,
Mississippi, and North Carolina – have used some form
of this two-part test to claims for defamation, breach of
fiduciary duty, professional negligence, conversion, civil
conspiracy, and intentional infliction of emotional
distress, and other claims.
The first question
presented is based on a deep, ongoing, and entrenched
split.
2. The second split concerns whether courts must
analyze both liability issues and the scope and nature
of the relief sought when determining the restrictions
the First Amendment places on the case. While the
District of Columbia Court of Appeals and the Puerto
Rico Supreme Court have held that courts are required
to analyze only issues of liability, the D.C. Circuit and
the Supreme Court of Mississippi have held that courts
must consider the nature of the relief sought as well.
Compare Turner v. Hines, No. 16-CV-444 (D.C. Jan. 16,
2019), App. 4 (“liability may be adjudicated under
neutral principles of tort law without infringing on
[ p e t i t i o n e r s ’ ] c l a i m e d F i r s t Am e n d m e n t
immunity”)(emphasis added) and Feliciano v. Roman
Catholic and Apostolic Church, 200 DPR 458 (P.R.
2018) with Costello Publ’g Co. v. Rotelle, 670 F.2d 1035,
1050 n.31 and accompanying text (CADC
1981)(directing district court to avoid remedies that
would interfere with defendant religious organization’s

6
First Amendment rights); Greater Fairview Missionary
Baptist Church, 160 So.3d 223 (Miss. 2015)(requiring
courts to shape relief to meet demands of the First
Amendment.
The Puerto Rico Supreme Court’s decision in
Feliciano, is most illuminating. Like the D.C. Court of
Appeals, Puerto Rican courts use “neutral principles of
law” approach. App. to Petition for Writ of Certiorari
in Archdiocese of San Juan v. Feliciano, O.T. 2018, No.
921, p. 9a-10a (certified translation of Feliciano,
emphasis added). Like the D.C. Court of Appeals, but
in opposition to the D.C. Circuit and the Supreme
Court of Mississippi, the Puerto Rico Supreme Court
does not address whether the First Amendment
restricts the nature or scope of the remedy sought. The
court’s lack of concern for First Amendment
restrictions showed in the breath-taking extent of the
relief the court ordered. The second question presented
is based on this consequential split.
DECISIONS BELOW
The opinion of the District of Columbia Court of
Appeals is unpublished, and is reproduced at App. 3-18.
The Court of Appeals order denying the timely petition
for rehearing en banc is reproduced at App. 1-2.
The relevant orders of the District of Columbia
Superior Court, which are all unreported, are
reproduced sequentially at App. 19-67.
STATEMENT OF JURISDICTION
On January 16, 2019, the District of Columbia
Court of Appeals released its opinion, and denied a

7
timely petition for a rehearing en banc on March 12,
2019. On June 5, 2019, the Chief Justice granted an
extension to file a petition for certiorari to June 10,
2019. On July 10, 2019, the Chief Justice granted a
further extension up to and including July 30, 2019.
This Court has jurisdiction under 28 U.S.C.
§ 1257(a).
This case involves important First
Amendment rights that may be lost if this Court waits
until after trial and judgment is entered. Under these
circumstances, this Court has jurisdiction to issue a
writ of certiorari even though the case is still pending.
See National Socialist Party of Am. v. Village of Skokie,
432 U.S. 43, 44 (1977). See also Cox Broadcasting
Corp. v. Cohn, 420 U.S. 469, 482–83 (1975). See
Statement of the Case, Section C, below, for further
details.
PERTINENT CONSTITUTIONAL PROVISIONS,
STATUTES, AND REGULATIONS
The First Amendment provides, in relevant part:
“Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof.” U.S. Const. Amdt. I.
STATEMENT OF THE CASE
Petitioners challenge a court order denying their
motion to dismiss the complaint at the pleadings stage.
Because a trial would deprive the petitioners of their
First Amendment rights to be free from judicial
interference, they seek immediate redress to protect
those rights. See Section C, below.

8
The complaint contends that the church’s pastor,
with the assistance of an elder and the church’s CDC
(both of whom are also petitioners), “engag[ed] for over
a decade in a series of unauthorized, wasteful, and
improper transactions involving Church funds and real
property.” Turner, App. 5. The question is whether the
proper forum to adjudicate those claims is a secular
court or the church itself.
The District of Columbia Court of Appeals chose to
rest its answer to this question solely on whether the
claims in the complaint could be decided using “neutral
principles of law” without consideration of doctrinal
matters. App. 12-13. “The touchstone for determining
whether civil courts have jurisdiction” to hear a church
dispute, the Court of Appeals has declared, “is whether
the courts may employ neutral principles of law and
ensure that their decisions are not premised on the
consideration of doctrinal matters…..”
Family
Federation for World Peace v. Moon, 129 A.3d 234, 249
(D.C. 2015)(citations and internal quotation marks
omitted). The court described the allegations in the
complaint as “primarily boil[ing] down to whether [the
pastor], with [the elder’s and the CDC’s] assistance,
misappropriated the Church’s money for his own use
and encumbered or disposed of the Church’s real estate
without the authorization required by the Church’s
Constitution.”2 The Court of Appeals held that the
complaint met this “neutral principles of law” test

2

Petitioners vehemently deny these allegations and many of the
other allegations in the complaint. But, for the purposes of
reviewing the claims in the complaint, the Court of Appeals
assumed the allegations were true.

9
because it purported to recite claims for conversion,
breach of fiduciary duty, unjust enrichment, and civil
conspiracy – claims the Court of Appeals concluded “all
‘rely upon doctrines basic to our legal system’ and are
resolved by applying familiar, well-developed, neutral
principles of law.” App. 14 (quoting Family Federation,
129 A.3d at 249.)
Although it recognizes that the church constitution
includes religious language, the Court minimized the
importance of the religious content and focused only on
secular-sounding provisions.
The Court did not
examine, for example, how the religious language used
to describe the pastor’s authority affected the contours
and scope of that authority.
Even more troubling, the opinion never even
mentions other important factors. The opinion never
acknowledges, for example, that the complaint alleges
injuries only to the church and sought relief on behalf
of the church alone. App. 107-08. Nor did it note that
none of the plaintiffs is mentioned more than once in
the complaint, and then only to name the plaintiff and
baldly assert his or her membership in the church.3
The opinion never asks whether the plaintiffs had
authority to speak on behalf of the church, particularly
in asserting claims against the church’s leadership.
Nor does it ever consider the nature and scope of the

3

Petitioners deny that respondents are members of the church, but
that fact is irrelevant for purposes of this appeal. Whether
respondents are members cannot be determined until trial. But it
is the very process of the judicial inquiry that infringes on the
church’s First Amendment rights. See NLRB.

10
relief sought which, if granted, could paralyze the
church.
The decision of the Court of Appeals also never
examines whether it could grant relief by referring
some or all of the claims to the church to resolve. The
decision does not contemplate, for example, whether it
or the trial court could or should fashion procedures,
similar to the ones sanctioned by the Supreme Court of
Mississippi, that would allow it to refer the dispute to
the church for internal ecclesiastical review. See
Greater Fairview Missionary Baptist Church. Nor did
it ask, as would be required in the D.C. Circuit,
whether the relief sought would “entangle [the court] in
the decision-making process of the Church with regard
to its religious obligations….” Costello, 670 F.2d at
1050 n.31.
This failure is particularly important
because the complaint seeks (1) an injunction
prohibiting two of the church’s three-member board of
elders from exercising authority over church finances
or property; and (2) a “full accounting of the financial
records” of the church, the pastor, and the elder. See
the complaint’s prayer for relief at App. 107. In a word,
the Court of Appeals never directly confronted
important aspects of how the case could interfere with
the church’s right to govern itself.
A. Factual Background
According to the complaint, Beulah Baptist Church
of Deanwood Heights (the church ) is a missionary
Baptist church that was founded in 1909. App. 72.
Beulah’s 1997 Constitution, on which the complaint
heavily relies, begins with a preamble proclaiming that
Beulah is a New Testament church. 1997 Church

11
Constitution, Article II, App. 111. Not surprisingly, the
church constitution uses Biblical language to describe
the pastor as “overseer, leader, advisor, and teacher” –
a direct reference to the Bible.
1997 Church
Constitution, Article IV, Section 1, App. 113. The word
“overseer” is particularly important because it appears
in twice in 1 Timothy 3, the Biblical text that 1997
Church Constitution cites as Beulah’s guideline for
choosing a pastor.1997 Church Constitution, Article IV,
Section 4, App. 115.
Some Bible translations render the Greek word for
“overseer” (“episkopos”) as “leader,” while others
translate it as “bishop.” Compare 1 Timothy 3:1 (New
International Reader’s Version, Biblica 2014) with 1
Timothy 3:1 (Amplified Bible, Classic Edition, The
Lockman Foundation 1987).4 Indeed, the word
“episkopos” is the source of the words “bishop” and
“episcopal.”
Bishop, The Merriam-Webster
Dictionary 72 (2016). Among other things, the church
constitution granted the pastor authority as “overseer”
over all of Beulah’s affairs, financial as well as
spiritual. Additionally, the constitution obligates the
pastor to “carry out the purpose of the Church” and
gives him the authority to perform “duties common to
Pastors in Missionary Baptist Churches.” Id., Article
IV, Sections 1-2, App. 113-14. Moreover, the church
constitution entrusts the pastor with obtaining the

4

According to the National Baptist Convention – a leading
authority for Missionary Baptist Churches – “[i]n the Baptist
tradition, pastors and bishops are, for all intents and purposes, the
same.”
http://www.nationalbaptist.com/resources/churchfaqs/pastor-clergy-faqs.html, last visited on January 31, 2019.

12
recommendations of Beulah’s boards (including its
Board of Trustees), but does not require the pastor to
accept those recommendations.
1997 Church
Constitution, Article IV, Section 1, App. 113. Article V
of the 1997 Church Constitution requires the deacons
to “assist the Pastor as the Disciples assisted Christ,”
drawing a direct analogy between the pastor’s
authority and the authority of Jesus Christ. 1997
Church Constitution, Article V, Section 1.a, App. 116.
The church adopted new bylaws in 2012 that
created a three-member board of elders to govern the
church. Complaint, ¶ 84, App. 93. Two of the three
current elders are petitioners. Id., ¶¶ 84-85, App. 93.
In 2014, the church ran into financial difficulties
and was briefly in foreclosure. Id., ¶ 89, App. 94.
Respondents allege that they found out about the
foreclosure from a story published in the Washington
Post in January 2014. Id. On March 14, 2014, a
dissident group, including two of the respondents in
this case, filed a lawsuit against the pastor, the
church’s CDC, and other defendants. 9/4/15 Order at
App. 48-49. At about the same time that lawsuit was
dismissed, dissidents (once again including two of the
respondents) filed another lawsuit on June 13, 2014.
Id., at 49. That lawsuit was also dismissed as part of
a settlement agreement. App. 50.
In spite of the publicity and three separate lawsuits,
neither the church nor any of its leaders have joined
the respondents.
More than five years later, the
pastor is still pastor, and the church has not taken any
actions to remove or discipline him. The church’s
decision is clear.

13
B. Procedural Background
While the second lawsuit was still pending,
plaintiff-respondents filed this third complaint on
March 3, 2015, and amended the complaint on June 17,
2015. See App. 51, 56. Petitioners moved to dismiss
the complaint on the ground that it violates the First
Amendment. The Superior Court granted the motion
on September 4, 2015 (App. 47), but reversed itself and
reinstated the elder and CDC in an order issued on
February 16, 2016. App. 28. In its February 16 order,
the Superior Court held that the First Amendment did
not protect any of the petitioners (including the
pastor).5 Petitioners filed motion for reconsideration,
and the Superior Court denied the motion in an order
issued on April 15, 2016. App. 19. Petitioners filed a
timely notice of appeal, and the District of Columbia
Court of Appeals exercised jurisdiction under the
collateral order doctrine. On January 16, 2019, the
Court of Appeals issued an order remanding the case to
the Superior Court. App. 3. Petitioners filed a timely
motion for rehearing, which the Court of Appeals
denied on March 12, 2019. App. 1. Petitioners filed
timely applications to extend the time to file this
petition, and the Chief Justice granted both
applications, extending the time to file this petition to
July 30, 2019.
5

Although the trial court dismissed the claims against the pastor
on res judicata grounds, it did not order a separate final judgment.
See App. 4, 39. Respondents, moreover, continue to seek an
accounting of his finances and permanent injunctive relief against
him. Amended Complaint, App 107. Consequently, the pastor
continues to have a live, vital interest in the outcome of this
petition.

14
C. Jurisdiction
Under 28 U.S.C. § 1257(b), the District of Columbia
is treated as though it were a state, and this Court’s
jurisdiction rests on 28 U.S.C. § 1257(a). Although this
case is pending in the lower courts, this Court has
jurisdiction to prevent the loss of an important First
Amendment right.
Under Cox, this Court has
jurisdiction to issue a writ of certiorari to protect a
federal right where (1) the federal question determines
the outcome of the case and (2) the federal right might
be lost or seriously eroded if the case were allowed to
proceed to judgment. See Cox, 420 U.S. at 482–83.
Where a lower court erroneously permits a case
involving a church to proceed, the trial itself offends
the First Amendment and deprives the church and its
leaders of a valuable constitutional right. Cf. NLRB,
440 U.S. at 502 (“the very process of inquiry” in quasijudicial proceeding investigating a church can infringe
the church’s First Amendment rights). And where the
First Amendment prohibits the lower court from trying
the case, the question arising under the First
Amendment determines the outcome of the case.
Not surprisingly, lower courts have uniformly held
that churches and their leadership are entitled to an
interlocutory appeal to protect their constitutional
rights. See Swanson v. Roman Catholic Bishop of
Portland, 1997 ME 63, ¶ 6; 692 A.2d 441, 443 (1997)
(interlocutory appeal allowed because “the church is
entitled to protection from the very process of litigation
itself” if the First Amendment applies); Harris v.
Matthews, 361 N. C. 265, 269–71, 643 S.E.2d 566, 56970 (N.C. 2007) (ecclesiastical abstention doctrine

15
safeguards a substantial First Amendment right and
an order erroneously denying motion to dismiss would
work an irreparable injury if not corrected before final
judgment; citing Elrod v. Burns, 427 U.S. 347, 373
(1976) (plurality)); St. Joseph Catholic Orphan Society
v. Edwards, 449 S.W.3d 727, 737 n. 36 (Ky. 2014)
(same); Heard v. Johnson, 810 A.2d 871, 877 (D.C.
2002) (First Amendment protects church from
immunity to suit that would be lost if the case went to
trial; citing Mitchell v. Forsyth, 472 U.S. 511, 526
(1985)).
This Court, moreover, has held that it has
jurisdiction to grant certiorari to prevent or remediate
the deprivation of the First Amendment right. See
National Socialist Party. In National Socialist Party,
this Court held that a lower court’s interlocutory order
denying protection of a First Amendment right
constituted a separable, final, collateral order
appealable under the collateral order doctrine. Just as
an appellate court has jurisdiction under the collateral
order doctrine to hear the interlocutory appeal, this
Court has jurisdiction under § 1257 to protect the First
Amendment right. Id. See also Abney v. United States,
431 U.S. 651, 660 (1977)(holding that considerations
giving this Court jurisdiction over a pending matter
under § 1257 are identical to those giving a federal
circuit court of appeals jurisdiction under the collateral
order doctrine).
And just as this Court has § 1257 jurisdiction over
double-jeopardy cases to prevent the loss of a
fundamental constitutional right that would otherwise
be forfeited or seriously damaged by a trial, this Court

16
also has jurisdiction under § 1257 to grant certiorari in
this case to prevent the evanescence of the church’s
First Amendment rights by trial. Compare Harris v.
Washington, 404 U.S. 55 (1971) (recognizing this
Court’s jurisdiction under § 1257 over double jeopardy
cases) and Abney, 431 U.S. at 660 with National
Socialist Party (citing Abney and Cox in support of this
Court’s jurisdiction over a pending case involving a
dispositive First Amendment matter). This Court has
jurisdiction to grant this petition.
REASONS FOR GRANTING THE WRIT
I.

There is an Acute, Irreconcilable Split
Concerning Whether Judicial Inquiry that
Intrudes Coercively into the Church’s SelfGovernance Violates the First Amendment.

There is a deep and irreconcilable split concerning
whether a court must determine whether a private
lawsuit “intrudes coercively” into church governance,
even when the case may be resolved by “neutral
principles of law” without resting the decision on issue
of religious “doctrine.” At least five lower courts – two
circuits and two supreme courts – hold to one form or
another of this two-part test. But at least three state
supreme courts hold that nothing more is required
than to determine whether “neutral principles of law”
are needed to resolve the case without having to settle
“doctrinal” issues. This Court should grant certiorari
on the first question presented to resolve this split.

17
A. The D.C. and Fifth Circuits and the
Texas, Mississippi, and North Carolina
Supreme Courts Have Adopted the TwoPart Test.
Several lower courts have rejected the one-part test
adopted by the District of Columbia Court of Appeals in
favor of a two-part test. The Fifth Circuit has adopted
and reaffirmed a two-part test requiring courts to
determine whether a case requires them to “intrude
coercively” into church governance, even when the case
could be decided according to neutral principles of law.
The Supreme Courts of Texas, Mississippi, and North
Carolina have adopted functionally identical tests and
applied them to a wide range of tort claims. The
Supreme Courts of Mississippi and North Carolina are
particularly remarkable because they have explicitly
denied claims for conversion, breach of fiduciary duty,
unjust enrichment and civil conspiracy brought by
congregants on behalf of the church – precisely the
claims at issue in this case – because they infringe the
First Amendment.
Significantly, the District of Columbia Court of
Appeals is at loggerheads with the District of
Columbia Circuit Court of Appeals, which also applies
this two-step approach. That conflict creates the
potential for cases raising the same claims in the
District of Columbia to reach different results
depending on which court hears the cases.
1. In the lead case, Combs, 173 F.3d at 350, the
Fifth Circuit emphatically rejected the very test that
the D.C. Court of Appeals applied in this case. In
Combs, a female cleric of the United Methodist Church

18
sued her church and church conference for sex
discrimination under Title VII. She had returned from
maternity leave to find that she had been terminated
from her position as Associate Minister for the church.
Combs, 173 F.3d at 344.
In this pre-Hosanna-Tabor case, the minister
argued that the issues she raised did not implicate
church “doctrine” and could thus be decided according
to “neutral principles of law” without violating the
First Amendment. Combs, 173 F.3d at 350.
The Fifth Circuit rejected her argument because it
addressed only the first of the First Amendment’s two
concerns. “The second quite independent concern,” the
Fifth Circuit held, “is that in investigating employment
discrimination claims by minsters against their church,
secular authorities would necessarily intrude into
church governance in a manner that would be
inherently coercive, even if the alleged discrimination
were purely nondoctrinal.” Ibid. (emphasis added).
“This second concern alone is enough to bar the
involvement of the civil courts.” Ibid.
2. Going even further than the Fifth Circuit, the
Supreme Court of Texas applies the two-part rule to
torts for defamation, professional malpractice,
intentional infliction of emotional distress, breach of
fiduciary duty, and negligence. Westbrook v. Penley,
231 S.W.3d 389, 394, 397 (Tex. 2007). In Westbrook, a
congregant sued her pastor, a licensed marriage
counselor from whom she had sought counseling. Id.,
at 394.

19
The Supreme Court of Texas decided that he could
not be held liable. Even assuming the counseling was
purely secular, the court held that it could not separate
the pastor’s actions as counselor from his acts as a
pastor. “In his dual capacity,” the court wrote, the
pastor owed the congregant “conflicting duties…as
[her] counselor… and as her pastor…” Id., at 391-92.
The court held that “parsing those roles for purposes of
determining civil liability…, where health or safety are
not at issue, would unconstitutionally entangle the
court in matters of church governance….” Id., at 392.
The congregant argued that the pastor breached a
secular duty of confidentiality as a licensed counselor,
and that her claim against him did not require
resolution of a theological matter – exactly the “neutral
principles of law” standard that District of Columbia
Court of Appeals has said is sufficient to satisfy the
First Amendment. Id., at 396-97. But the Texas
Supreme Court disagreed. While it might be true that
the congregant’s claim could be decided without having
to resolve a theological question, “that doesn’t answer
whether [allowing a secular court to decide the case]
would unconstitutionally impede the church’s authority
to manage its own affairs.” Id., at 397. Citing Kedroff,
the court concluded that civil courts have an obligation,
separate and distinct from their obligation to apply
only “neutral principles of law” to the disputes before
them, to “be careful not to intrude upon internal
matters of church governance.” Ibid.
3. The Supreme Court of Mississippi applied this
two-part test in exactly the same circumstances as this
case and reached the exact opposite result. Like the

20
District of Columbia Court of Appeals, “Mississippi has
adopted the ‘neutral principles of law’ approach for
resolving church property disputes.” Schmidt v.
Catholic Diocese of Biloxi, 18 So.3d 814, 824 (Miss.
2009). But unlike the District of Columbia, Mississippi
holds that they are not applicable to ecclesiastical
matters even if those matters are not doctrinal. See
Church of God Pentecostal, Inc. v. Freewill Pentecostal
Church of God, Inc., 716 So.2d 200, 210-11 (Miss.
1998)(adopting “neutral principles of law” approach but
affirming trial court that excluded evidence of one
church seeking to siphon members from a sister church
as involving ecclesiastical issues outside the
parameters of “neutral principles”).
In Schmidt, the Mississippi Supreme Court applied
this two-step approach to dismiss precisely the types of
claims that District of Columbia Court of Appeals,
relying solely on the whether the case raised
“doctrinal” issues, has allowed to proceed. In Schmidt,
Catholic parishioners sued their parish priest, their
bishop, and their Catholic diocese for misleading them
about a fundraising campaign to rebuild a parish
church destroyed by Hurricane Katrina. Schmidt, 18
So.3d at 818, 830. Using its two-step approach, the
Supreme Court of Mississippi held that the
parishioners could sue for injuries they had sustained
individually, but not for injuries their parish had
sustained. The court held that if the church had
promised parishioners that their donations would be
used for a specified purpose but diverted the
contributions to a different purpose, the parishioners
could assert fraud claims and seek a refund. Id., at
830.

21
But the court also held that the First Amendment
prohibits those same parishioners from asserting
breach of trust and breach of fiduciary duty claims that
would have given the parishioners control over the
parish.
Id., at 819-20, 828-29.
Like the
plaintiffs/respondents in this case, the parishioners
alleged that the parish property was held in trust for
their benefit, and that the church leaders had breached
that trust by diverting funds designated to rebuild the
parish. Compare id., at 819-20 to Complaint, ¶¶ 6-23,
106, App. 74-77, 98-99. And like this case, the
parishioners sought an injunction to prevent the
church leaders from selling, conveying, or encumbering
the parish property. Compare Schmidt, 18 So.3d at
820 to Complaint, Prayer for Relief, App. 107.
But unlike this case, the Supreme Court of
Mississippi held that the parishioners’ claims were
barred by the First Amendment. Schmidt, 18 So.3d at
829. “[C]ivil courts,” the court held, “may not secondguess church administrative or management decisions,
or substitute their judgment in place of the church's.”
Id., at 829. Although the parishioners were entitled to
refunds of the contributions they made for the parish
rebuilding project that were diverted to other purposes,
they were not entitled to the injunctive relief they
sought. Id., at 829-30. The parishioners’ claims
intruded too deeply into the church’s ability to govern
itself.
4. In a case on all fours with this one, the North
Carolina Supreme Court also reached a result in direct
conflict with the decision of the District of Colombia
Court of Appeals in this case. See Harris v. Matthews.

22
In Harris, a group of disaffected church members sued
the pastor and two other leaders of a Missionary
Baptist Church for injuries the church purportedly
suffered. The plaintiffs alleged that the pastor and his
cohorts took advantage of a bylaw change in the
financial management of the church to misappropriate
funds from the church. Like the plaintiffs/respondents
in this case, the plaintiffs in Harris asserted claims –
on behalf of the church only – for conversion, breach of
fiduciary duty, and civil conspiracy. Id., at 268, 643
S.E.2d at 568.
But unlike in this case, the Supreme Court of North
Carolina held that it could not decide the case using
neutral principles of law. Id., at 273, 643 S.E.2d at
571. “To address plaintiffs’ claims,” the court held, “the
trial court would be required to interpose its
judgment…as to the proper role of…church officials…to
the exclusion of the judgment of the church’s duly
constituted leadership.” Ibid. Because the case would
require the trial court to intrude too coercively into the
church’s self-governance, “[n]one of these issues can be
addressed using neutral principles of law.” Ibid. “This
is precisely the type of ecclesiastical inquiry courts are
forbidden to make.” Ibid.
5. This split is exacerbated by the conflict between
the D.C. Circuit and the D.C. Court of Appeals. In a
decision quoted extensively by the Fifth Circuit in
Combs, the D.C. Circuit rejected the argument that a
college professor’s employment discrimination claim
against a Catholic university could be decided by
neutral principles of law. Catholic University. The
professor, a Catholic nun, alleged sex discrimination in

23
the university’s decision to deny her tenure in its
Canon Law Department. Id. The E.E.O.C. argued that
her case could “be resolved without entangling the
Government in questions of religious doctrine, polity,
and practice by invoking neutral principles of law….”
Id., 83 F.3d at 465-66 (citation and internal quotation
marks omitted). The E.E.O.C. reasoned that her
qualifications as a scholar could be analyzed without
raising doctrinal issues. But the D.C. Circuit held that
“while it is true that the [tenure committee] was a
secular body and that it examined [the professor’s]
qualifications in accordance with the secular criteria
set forth in the Faculty Handbook,…it is by no means
clear that its decision was unaffected by religious
considerations.” Ibid.
The court further held that the E.E.O.C.
investigation and subsequent lawsuit intruded
coercively into the school’s tenure process, “caus[ing] a
significant diversion of…time and resources.” Id., at
467. The inquiry itself risked discouraging faculty
from making tenure decisions based on appropriate
“doctrinal assessments.” Ibid. Thus, “‘the very process
of inquiry’” itself “‘impinge[d] on rights guaranteed by
the [First Amendment].…’” Id., at 466 (quoting NLRB,
440 U.S. at 502). “[B]y encroaching on the ability of a
church to manage its internal affairs,” the E.E.O.C.
and court infringed the university’s First Amendment
rights. Id., at 460 (quoting Kedroff).

24
B. The D.C. Court of Appeals, the Second
Circuit, and the New Jersey Supreme
Courts Adhere to the One-Part Test.
Decisions from the D.C. Court of Appeals, the
Second Circuit, and the Supreme Court of New Jersey
all directly conflict with the two-part test. These cases
all hold that courts will satisfy the First Amendment so
long as the issues presented in the case can be decided
by neutral principles of law without determining or
relying on religious doctrine.
1. As described above, the District of Columbia
Court of Appeals has held that “civil courts may resolve
disputes involving religious organizations as long as
the courts employ neutral principles of law and their
decisions are not premised upon their consideration of
doctrinal matters, whether the ritual and liturgy of
worship or the tenets of faith.” Meshel v. Ohev
Shalmon Talmud Torah, 869 A.2d 343, 354 (D.C. 2005)
(quoting Jones v. Wolf, 443 U.S. 595, 602 (1979)). The
Court of Appeals has referred to this test as “[t]he
touchstone for determining whether civil courts have
jurisdiction” to hear a church dispute.
Family
Federation for World Peace v. Moon, 129 A.3d 234, 249
(D.C. 2015)(citations and internal quotation marks
omitted). The Court of Appeals has read this Court’s
precedents to mean that this approach is sufficient, by
itself, to “avoid[] prohibited entanglement in questions
of religious doctrine, polity, and practice by relying
exclusively upon objective, well-established concepts of
law that are familiar to lawyers and judges.” Meshel,
at 354 (quoting Jones, emphasis added).

25
The Court of Appeals held that plaintiffs/
respondents’ claims for conversion, unjust enrichment,
breach of fiduciary duty, and civil conspiracy were
“causes of action [that] all ‘rely upon doctrines basic to
our legal system’ and are resolved by applying familiar,
well-developed, neutral principles of law.” App. 14
(quoting Family Federation, 129 A.3d at 249). Based
on this analysis, the Court of Appeals affirmed the trial
court’s order denying petitioners’ motion to dismiss.
The Court of Appeals acknowledged Kedroff and
Hosanna-Tabor only in passing, and it never separately
considered whether the case intruded coercively into
the church’s right to self-governance.
It never
considered, for example, whether the case could deprive
the church of its right to choose its pastor because of
the broad equitable relief sought by the complaint. See
Smith v. White, 2014-Ohio-130, 7 N.E.3d 552, 563-64,
569 (Ohio App. 2014)(holding that the First
Amendment barred a claim of breach of fiduciary duty
against the pastor seeking an accounting of church
finances because such an action amounted to a suit to
remove the pastor, which should be referred to the
church instead). Nor did it consider whether the
claims would interfere with the church’s management,
or whether the trial court was being asked to interpose
its judgment for that of the church’s. The court’s
decision therefore conflicts directly with the decisions
described in Section I.A., above.
2. The Second Circuit also conflicts directly with the
decisions described in Section I.A. In Martinelli v.
Bridgeport Roman Catholic Diocesan Corp., 196 F.3d
409 (CA2 1999), the Second Circuit held that the

26
religious teachings of a church could be used as the
basis for establishing tort liability against the church.
The issue in the case, as the Second Circuit described
it, was “whether, as a matter of fact, [the plaintiff’s]
following of the teachings and belief in the tenets [of
the church] gave rise to a fiduciary relationship
between [the plaintiff] and the church.” Id., at 431.
The Second Circuit, like the D.C. Court of Appeals,
understood its obligation under the First Amendment
to be strictly limited to determining whether the issues
presented by the case required it to resolve any
theological issues. Ibid. Citing Jones, the Second
Circuit held that it was enough that “neither the
district court nor we have made any decision for or
against any religious doctrine or practice.” Ibid. The
Second Circuit further held that a plaintiff could build
a case for breach of fiduciary duty out religious beliefs
that “are alleged to give rise to a special legal
relationship between him and his church….” Ibid.
Because the church could “point[] to no disputed
religious issue which the jury or the district judge in
this case was asked to resolve,” there was no violation
of the First Amendment. Ibid. The Second Circuit
never acknowledged Kedroff or made any attempt to
analyze whether the proposed fiduciary relationship
would (a) damage the church’s relationship with its
clergy or (b) otherwise harm the church’s ability to
govern its internal affairs.6

6

The plaintiff in Martinelli sued the church hierarchy for failing
to protect him and others when they were children from sexual
assault by a priest under the hierarchy’s supervision. Id., at 414.
Under such circumstances, it makes sense to balance the church’s

27
3. In F.G. v. MacDonell, 150 N.J. 550, 555-56, 696
A.2d 697, 700 (1997), the New Jersey Supreme Court
approved of using “neutral principles of law” to
scrutinize a minister’s notes of his sermons for evidence
of tort liability against the minister. The plaintiff in
F.G. alleged that the minister had inappropriately
disclosed the plaintiff’s sexual relationship with
another clergyman. Ibid. Applying “neutral principles
of law,” the New Jersey Supreme Court held that
“[w]hether [the plaintiff] may maintain her action
against [the minister] depends on whether a court may
adjudicate her claims without becoming entangled in
church doctrine.” Ibid. (emphasis added).
In F.G., the New Jersey Supreme Court relied
exclusively on whether the case presented “doctrinal
issues” that would prevent using “neutral principles of
law.” It gave no consideration to whether the claim
itself would intrude coercively into internal church
affairs.

First Amendment rights against the harm done to the plaintiff:
“[J]ustifications for the ecclesiastical abstention are at their lowest
ebb in circumstances where religious institutions or their
employees harm innocent and unconsenting third parties.”
Redwing v. Catholic Bishop for Diocese of Memphis, 363 S.W.3d
436, 451 (Tenn. 2012) (internal citation and quotation marks
omitted). But it is still remarkable that the Second Circuit, in
fidelity to Kedroff, did not undertake any analysis at all.

28
II.

There is a Significant Split Concerning
Whether the “Neutral Principles of Law”
Test Analyzes Only the Claims, Or the
Nature of the Relief Requested As Well.

There is also a dramatic split among the lower
courts over whether courts using “neutral principles of
law” may analyze only the claims or must also analyze
whether the scope and nature of the relief sought
comports with the First Amendment. The District of
Columbia Court of Appeals and the Puerto Rico
Supreme Court analyze liability only; the D.C. Circuit
and the Mississippi Supreme Court analyze both.
1. As explained above, the District of Columbia
Court of Appeals concentrates on liability issues when
determining whether the First Amendment permits a
court to hear a church dispute. As it explained in its
opinion in this case, the Court of Appeals concluded
that “the ecclesiastical abstention doctrine does not
require dismissal of the suit…because it appears that
[petitioners’] liability may be adjudicated under neutral
principles of tort law….” App. 4 (emphasis added).
When analyzing the issues that were presented by this
case, the court characterized them as “simply issues of
the permissible use or disposition of property” and did
not discuss any matters concerning the scope or nature
of the relief sought. App. 14.
2. Likewise, the Puerto Rico Supreme Court does
not concentrate on the scope or the nature of the relief
sought when it scrutinizes whether a court may
entertain a church dispute. See Feliciano v. Roman
Catholic and Apostolic Church, 200 DPR 458 (P.R.
2018). When the court analyzed whether a civil court

29
could decide the dispute in Feliciano, it concentrated
exclusively on the nature of the claims, not the relief.
App. to Petition for Writ of Certiorari in Archdiocese of
San Juan v. Feliciano, O.T. 2018, No. 921, p. 9a-11a
(certified translation of Feliciano). The Puerto Rico
Supreme Court described the dispute as “external
matters of the Catholic Church in its role as employer
versus the petitioner employees in a purely contractual
dispute.” Id., at 11a.
In the relief phase, the only issue the Puerto Rico
Supreme Court considered was whether the defendant
was (a) the entire Catholic Church in Puerto Rico or
(b) some smaller, more narrowly-defined set of Catholic
institution(s). Id., at 13a-14a. The court did not
consider whether the First Amendment placed any
restrictions on the nature or scope of the relief it could
order. The court affirmed an order directing the sheriff
to seize assets anywhere in Puerto Rico belonging to
any Catholic institution to pay the unfunded
retirement liability of three Catholic schools.
3. That approach conflicts directly with the
holdings of the DC Circuit Court of Appeals and the
Supreme Court of Mississippi. In Costello, the D.C.
Circuit ordered the district court take certain
precautions in awarding relief against church
defendants. The plaintiff in that case was a religious
book publisher that asserted anti-trust claims several
Catholic organizations disapproving a liturgical book
sold by the publisher. Id., at 1038-40. The D.C. Circuit
remanded the case with instructions to allow the antitrust claims to go forward but with restrictions to avoid
impinging on the Catholic organizations’ religious

30
freedom First Amendment rights. Citing Jones, the
D.C. Circuit ordered the district court to be particularly
circumspect in ordering anti-trust damages that could
interfere with the organizations’ management of their
religious obligations: “[I]f antitrust violations should
be found, the court must, of course, be sensitive to the
nature of the religious organizations involved in
prescribing any antitrust remedies that might be
warranted as well as in weighing competing First
Amendment and antitrust interests.” Id., at 1050 n.31.
Likewise, in Greater Fairview Missionary Baptist
Church, the Supreme Court of Mississippi reaffirmed
that, under appropriate circumstances, a civil court
could order a church vote and establish procedures for
the vote. This process was the appropriate remedy
when needed to ensure that the church, not the court,
resolved an internal church dispute. Ibid.
III.

This Case Addresses an Extremely
Important First Amendment Issue.

It is more than forty years since this Court last
decided a case like Kedroff or Jones involving the First
Amendment in an intra-church dispute, and without
this Court’s guidance, the caselaw has developed
serious and irreconcilable splits. This case is extremely
important for at least three reasons: (1) it directly
affects more than 100,000 churches, synagogues, and
mosques with over 34 million members in the United
States; (2) it will provide important guidance to lower
courts that will improve the development of the law;
and (3) it addresses important issues that this Court
left open in Hosanna-Tabor concerning First
Amendment protections for churches.

31
A. This Case Presents an Important First
Amendment Church Autonomy Issue
that Affects Millions of Americans.
The practical dimensions of this problem make this
an urgent question for the Court to address. There are
over 54,000 Baptist churches in the United States with
over 19,600,000 congregants that are associated with
the Baptist World Alliance, for an average of a little
less than 400 congregants per church. See Baptist
World Alliance, Statistics (http://bwanet.org/statistics,
last viewed July 15, 2019). There are another 47,000
plus churches with over 14,000,000 more members in
the Southern Baptist Convention, which is not
associated with the Baptist World Alliance. See
Southern Baptist Convention, Fast Facts About the
SBC (http://www.sbc.net/BecomingSouthernBaptist/
FastFacts.asp, last viewed July 16, 2019). And there
are many more non-Baptist churches, synagogues, and
mosques that, like all Baptist churches, are organized
in a “congregational” manner, in which there is no
hierarchy above the local church. These religious
institutions have no higher authority (other than
scripture or God) than the congregation itself. They
therefore often cannot take advantage of this Court’s
rule that civil courts should defer to the judgments of
the judicatures of hierarchical churches. See, e.g.,
Kedroff. Then, as this Court has observed, “the very
process of inquiry…may impinge on rights guaranteed”
by the First Amendment. NLRB, 440 U.S. at 502.
Hundreds of thousands of American churches and their
tens of millions of congregants will be affected by this
case.

32
B. Guidance from This Court Will Assist
Lower Courts Both in Effectively
Managing Church Disputes and in
Shaping Appropriate Relief.
Courts that are more faithful to Kedroff’s and
Hosanna-Tabor’s command to respect a church’s right
to self-governance are more sensitive to the issues that
intrusive or extensive relief present. A reckless court
can threaten the ability of even a large religion to
operate freely by failing to tailor relief carefully. E.g.,
Feliciano.
That sensitivity also makes the courts more flexible
when a matter arises that needs to be addressed.
When a matter needs to be referred to a church for
resolution, lower courts have developed creative tools
for addressing these issues. If, for example, if a
dissident faction alleges that the church’s leaders have
misappropriated or mismanaged the church’s money,
the court can refer that dispute to the church. Under
appropriate circumstances, the court may order certain
procedures be followed to ensure the fairness and
legitimacy of the church proceeding. See Greater
Fairview Missionary Baptist Church, 160 So.3d at 228,
232.
Just as federal courts frequently certify state law
issues to the highest court of the relevant state, secular
courts should refer many church disputes (or the
dispositive issues in them) to the governing authority
of the individual church for their determination. See
id., at 232-33 (if church has not spoken on an
ecclesiastical issue, court should restore status quo to
enable the church to act). Cf. McCarthy v. Fuller, 714

33
F.3d 971, 976 (CA7 2013) (requesting amicus brief from
Vatican to resolve whether defendant was a Roman
Catholic nun). These tools can be extremely useful
both in resolving internal church disputes and in
crafting non-intrusive equitable relief. This Court’s
guidance in this area will assist lower courts in
recognizing, developing, and using these tools.
C. This Case Addresses
Important
Questions Left Open by this Court in
Hosanna-Tabor About First Amendment
Protections for Churches
This case is an extension of the critical issue
presented in Hosanna-Tabor: Just as this Court
determined that Title VII must be interpreted to avoid
infringing the church’s First Amendment right to order
its internal affairs, so that principle encompasses this
case as well. As Justice Alito observed in his
concurrence in Hosanna-Tabor:
[T]he autonomy of religious groups, both here in
the United States and abroad, has often served
as a shield against oppressive civil laws. To
safeguard this crucial autonomy, we have long
recognized that the Religion Clauses protect a
private sphere within which religious bodies are
free to govern themselves in accordance with
their own beliefs. The Constitution guarantees
religious bodies “independence from secular
control or manipulation—in short, power to
decide for themselves, free from state
interference, matters of church government as
well as those of faith and doctrine.”

34
Hosanna-Tabor, 565 U.S. at 199-200 (Alito, J,
concurring; quoting Kedroff, 344 U.S. at 116).
The danger in allowing courts to limit their First
Amendment inquiry to whether the case can be
resolved according to “neutral principles of law”
involves where a court draws that line. A secular court
could draw the line between secular and religious
matters in a manner that is much different from how
the church itself would draw that line. As this Court
has repeatedly recognized,
it is a significant burden on a religious
organization to require it, on pain of substantial
liability, to predict which of its activities a
secular court will consider religious. The line is
hardly a bright one, and an organization might
understandably be concerned that a judge would
not understand its religious tenets and sense of
mission.
Corporation of Presiding Bishop of Church of Jesus
Christ of Latter–day Saints v. Amos, 483 U.S. 327, 336
(1987). See also Hosanna-Tabor, 565 U.S. at 197
(Thomas, J, concurring); Amos, 483 U.S. 343-44
(Brennan, J, concurring) (“As a result, the community's
process of self-definition would be shaped in part by the
prospects of litigation.”).
“What makes the application of a religious-secular
distinction difficult is that the character of an activity
is not self-evident.” 483 U.S. at 343-44 (Brennan, J,
concurring). A theologian or a minister – or even an
average member of a church – will often understand a
religious principle or phrase in a much different

35
manner than a judge, whose professional training is in
law and not religion. “[T]his prospect of government
intrusion raises concern that a religious organization
may be chilled in its free exercise activity. While a
church may regard the conduct of certain functions as
integral to its mission, a court may disagree.” Id.
Frequently, the litigants to a church dispute will not
be able to articulate a religious doctrine that captures
those principles in a manner the secular courts can
understand and apply. In those cases, courts that rely
solely on single-step “neutral principles of law” test are
likely to misconceive the scope of the protectable
religious interests and err in their application of the
First Amendment.
The District of Columbia Court of Appeals made
exactly that mistake in this case. When it catalogued
the issues presented by this case, the Court of Appeals
described them as “not issues of religious doctrine”
because “they do not involve review of policy matters
reserved to ecclesiastical judgment.” App. 13-14
(emphasis added). But the essence and power of
religion, the very thing that makes it effective as a
bulwark against the potentially oppressive abuse of the
power of the state, cannot be reduced to a series of
policy statements or prescriptions. Such a crabbed
understanding of the scope of what the First
Amendment protects leaves no room for either the
ineffable or the tangible dimensions of religious
experience. These are dimensions that can be captured
only in the manner in which religious institutions order
their liturgies, their internal relationships, the
distribution of authority, and so many other elements

36
that make up their internal affairs. Only a broader
test that can account for the wider panorama of
religious life and experience can effectively protect the
First Amendment values at play.
IV.

This Case is an Excellent Vehicle for
Resolving the Questions Presented

This case presents a clean, straightforward legal
issue concerning whether the lower court should have
considered not only whether it could resolve the
litigation without referring to religious doctrinal issues
but also whether it would necessarily intrude into
church governance. The plaintiffs/respondents did not
bring any claims on their own behalf but sued solely for
relief for the church. The church itself is not a
plaintiff, and the respondents seek an accounting and
permanent injunctive relief that would prevent the
ministers the church has chosen for itself from
governing the church. This case presents these issues
cleanly without having to wrestle with side-issues
concerning the church’s legal obligations to other
parties.
This case, for instance, does not involve the
complications that would be involved in:
• an employment law case, involving difficult
questions concerning the contractual and public
obligations a corporate employer owes its
employees;
• a case brought by a congregant for personal
injuries the congregant sustained;

37
• a case in which either individuals, state, or any
institution other than the church was
purportedly defrauded;
• claims involving the rights of third parties who
are strangers to the church; or
• cases involving criminal investigations or other
obligations to the State, or involve any other
complications.
This is instead a very clean case involving only the
issues described in Questions Presented.
CONCLUSION
Petitioners respectfully request that this Court
grant the petition for writ of certiorari or in the
alternative, if this Court grants the petition for a writ
of certiorari in Archdiocese of San Juan v. Feliciano,
O.T. 2018, No. 921, that this petition be held in
abeyance pending that decision, as that decision may
provide guidance in the instant dispute.

38
Respectfully submitted,
JOSEPH G. RICHOTTE
Counsel of Record
BUTZEL LONG, P.C.
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, MI 48304
(248) 258-1616
richotte@butzel.com
JOSEPH G. COSBY
BUTZEL LONG, P.C.
1909 K Street, N.W.
Suite 500
Washington, DC 20006
(202) 454-2800
cosby@butzel.com
Counsel for Petitioners

